 Office of Inspector General
       Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2011 AND 2010
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2012-002
         Date Issued: November 2, 2011
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    November 2, 2011
           Audited Financial Statements for
           Fiscal Years 2011 and 2010, Saint Lawrence
           Seaway Development Corporation
           Report Number: QC-2012-002

  From:                                                          Reply to
                                                                 Attn. of:   JA-20
           Louis C. King
           Assistant Inspector General for Financial and
           Information Technology Audits

    To:    Saint Lawrence Seaway Development
           Corporation Administrator

           I respectfully submit our report on the quality control review (QCR) of the Saint
           Lawrence Seaway Development Corporation's (SLSDC) audited financial
           statements for fiscal years 2011 and 2010.

           The audit of SLSDC's financial statements as of and for the years ended
           September 30, 2011, and September 30, 2010, was completed by Chiampou Travis
           Besaw & Kershner LLP, of Amherst, New York (see Attachment), under contract
           to SLSDC. The contract required the audit be performed in accordance with
           generally accepted Government auditing standards and Office of Management and
           Budget Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” as
           amended.

           Chiampou Travis Besaw & Kershner LLP concluded that the financial statements
           present fairly, in all material respects, the financial position of SLSDC as of
           September 30, 2011, and September 30, 2010, and the results of its operations and
           its cash flows for the years then ended, in conformity with U.S. generally accepted
           accounting principles. The report did not include any reportable internal control
           deficiencies or instances of reportable noncompliance with laws and regulations
           tested.
                                                                                 2


We performed a QCR of Chiampou Travis Besaw & Kershner LLP's report and
related documentation. Our QCR, as differentiated from an audit performed in
accordance with generally accepted Government auditing standards, was not
intended for us to express, and we do not express, an opinion on SLSDC's
financial statements or conclusions about the effectiveness of internal controls or
compliance with laws and regulations. Chiampou Travis Besaw & Kershner LLP
is responsible for its report dated October 14, 2011, and the conclusions expressed
in that report. However, our QCR disclosed no instances in which Chiampou
Travis Besaw & Kershner LLP did not comply, in all material respects, with
generally accepted Government auditing standards. Because Chiampou Travis
Besaw & Kershner LLP did not make any recommendations, a response to this
report is not required.

We appreciate the cooperation and assistance of representatives of SLSDC and
Chiampou Travis Besaw & Kershner LLP. If we can answer any questions or be
of any further assistance, please call me at (202) 366-1407, or Earl C. Hedges,
Program Director, at (410) 962-1729.


Attachment

                                         #
